NO.

IN THE
SUPREME COURT OF THE UNITED STATES

 

WILLIAM ALLEN
Petitioner
vs.
CANDICE BATTS and TONY PARKER,

Respondent

 

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

 

MOTION TO PROCEED IN FORMA PAUPERIS

 

Petitioner William Allen moves to proceed in forma pauperis. He is indigent, was
allowed to proceed in forma pauperis in the courts below, and was appointed counsel by the
United States District Court under 18 U.S.C. ยง 3006A. Accordingly, his motion to proceed in

Jorma pauperis should be granted.

October 9, 2020 Ke Cae a

SUMTER L. CAMP (BPR #009917)
Assistant Federal Public Defender
Office of the Federal Public Defender
810 Broadway, Suite 200

Nashville, Tennessee 37203-3805
(615) 736-5047
